                                                             UNITED STATES DEPARTMENT OF COMMERCE
                                                             Office of Inspector General
                                                             Washington. D.C. 20230




August I, 20 I 3


MEMORANDUM FOR:               Teresa Stanek Rea
                              Acting Under Secretary of Commerce for Intellectual Property
                               an! Xin\l b :the U.S. Patent and Trademark Office


FROM:                         Andrew Katsaros
                              Assistant Inspector General for Audit

SUBJECT:                      Audit of U.S. Patent and Trademark Office's Management of
                              Time-and-Materials and Labor-Hour Contracts

Time-and-materials and labor-hou r (T&M/LH) contracts constitute high risk to the government.
The contractor puts forth its best effort to accomplish the objectives of the contract up to the
maximum number of hours authorized under the contract. In July 2009, the Office of Federal
Procurement Policy in the Office of Management and Budget directed each federal agency to
reduce their use of high-risk contracting authorities.

We are initiating an audit of the U.S. Patent and Trademark Office's (USPTO's) management of
T&M/LH contracts. This is part of our risk-based, oversight strategy developed to help the
Department address management challenges in its acquisition function. In fiscal year 20 12,
USPTO obligated approximately $194 million to T&M/LH contracts for goods and services.
Our audit objective is to determine whether T&M/LH contracts are properly awarded and
adm inistered.

An entrance conference has been scheduled for August 6, 20 I 3, where we will further discuss
our objectives. If you have any questions regarding this audit, please call me at (202) 482-7859,
or Mark Zabarsky, Director of Acquisition Audits, at (202) 482-3844. Thank you in advance for
your cooperation during this audit.
